LEGAL PRINTERS,

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

July 31, 2019
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE:

CARLOS TAPIA

V.

NEW YORK

Dear Sir or Madam:
As a member of the Supreme Court Bar I hereby certify that at the request of
counsel for the Petitioner, on July 31, 2019, I caused service to be made pursuant to
Rule 29 on the following counsel for the Respondent:
RESPONDENT:
James J. Wen
Bronx County District Attorney’s Office
198 East 161st Street
Bronx, New York 10451
718-838-6669
wenj@bronxda.nyc.gov
This service was effected by depositing three copies of a Petition for a Writ of
Certiorari in an official “first class mail” receptacle of the United States Post Office as
well as by transmitting digital copies via electronic mail.
Sincerely,

Arthur D. Chotin, Esq.
Principal

